Report No. DODIG-2012-032           December 14, 2011





             Funding for Enhancements to the

              Standard Procurement System

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ACA                           Army Contracting Agency
ACC                           Army Contracting Command
ADA                           Antideficiency Act
ASA(FM&C)                     Assistant Secretary of the Army (Financial Management
                                 and Comptroller)
BTA                           Business Transformation Agency
CLIN                          Contract Line Item Number
COR                           Contracting Officer’s Representative
DoD FMR                       DoD Financial Management Regulation
ITEC4                         Information Technology, E-Commerce and Commercial
                                Contracting Center
JCC-I/A                       Joint Contracting Command-Iraq/Afghanistan
NCR                           National Capital Region
O&M                           Operation and Maintenance
PWS                           Performance Work Statement
SPS                           Standard Procurement System
USCENTCOM                     U.S. Central Command
                                INSPECTOR GENERAL 

                               DEPARTMENT OF DEFENSE 

                                4800 MARK CENTER DRIVE 

                            ALE XANDRIA, VIRGINIA 22350-1500 




                                                                       December 14,2011

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: 	 Funding for Enhancements to the Standard Procurement System (Report
           No. DODIG-2012-032)

We are providing this report for review and comment. Army Contracting Agency,
Information Technology, E-Commerce and Commercial Contracting Center officials
inappropriately used approximately $755,000 on Standard Procurement System
enhancements with FY 2008 Operation and Maintenance funds rather than Procurement
funds. This report discusses a potential violation of the Antideficiency Act. We
considered management comments on a draft of this report when preparing the final
report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The
Assistant Secretary of the Army (Financial Management and Comptroller) comments
were not responsive. We request additional comments on the recommendation by
January 13, 2012.

Ifpossible, send a .pdffile containing your comments to audfmr@dodig.mil. Copies of
your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868 (DSN 329-5868).



                                           t~Uvov               a-/IlcwJv
                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Financial Management and Reporting
Report No. DODIG-2012-032 (Project No. D2009-D000FB-0112.001)                December 14, 2011


              Results in Brief: Funding for Enhancements
              to the Standard Procurement System


What We Did                                             Management Comments and
During our audit of the Standard Procurement            Our Response
System (SPS) at the Joint Contracting Command­          The Deputy Assistant Secretary of the Army
Iraq/Afghanistan, we identified funding issues          (Financial Operations) responded for the
with SPS. Our audit objective was to determine          ASA(FM&C). The Deputy Assistant Secretary of
whether Army officials properly funded SPS              the Army (Financial Operations) disagreed with
enhancements for the Joint Contracting                  our recommendation and stated that, based on his
Command-Iraq/Afghanistan.                               coordination with the Army Contracting
                                                        Command-National Capital Region, he found no
We reviewed funding documentation related to            evidence that O&M funds were misused. He also
the SPS enhancements in task order 0105,                stated that even if O&M funds were misused, the
contract number W91V38-07-D-0001.                       Army had sufficient Other Procurement, Army
                                                        funds to adjust the accounts.
What We Found
Army Contracting Agency, Information                    The Deputy Assistant Secretary’s comments were
Technology, E-Commerce and Commercial                   not responsive. He did not agree that a potential
Contracting Center (ACA-ITEC4), contracting             Antideficiency Act violation occurred. However,
officials inappropriately used approximately            the additional documentation he provided was not
$755,000 of FY 2008 Operation and Maintenance           persuasive and did not change our finding or
(O&M) funds rather than Procurement funds for           recommendation.
the SPS enhancements. This occurred because
ACA-ITEC4 contracting officials misinterpreted          Therefore, we request that the Deputy Assistant
the DoD Financial Management Regulation. As a           Secretary of the Army (Financial Operations)
result, the ACA-ITEC4 potentially may have              reconsider his position on our recommendation
created a Purpose Statute violation and may have        and provide additional comments in response to
violated the Antideficiency Act.                        this report by January 13, 2012. Please see the
                                                        recommendation table on the back of this page.
What We Recommend
We recommend that the Assistant Secretary of the
Army (Financial Management and Comptroller)
(ASA[FM&C]) initiate a preliminary review for
the potential Antideficiency Act violation
identified, ensure that the preliminary review is
completed within 14 weeks, and report the results
of the review to the DoD Office of Inspector
General.




                                                    i
Report No. DODIG-2012-032 (Project No. D2009-D000FB-0112.001)   December 14, 2011

Recommendation Table
         Management                 Recommendation        No Additional Comments
                                   Requires Comment             Required
Assistant Secretary of the Army
(Financial Management and                 Yes
Comptroller)

Please provide comments by January 13, 2012.




                                          ii
Table of Contents 


Introduction                                                                    1


      Audit Objective                                                           1

      Background                                                                1

      Review of Internal Controls                                               2


Finding. Funding Issues with the Standard Procurement System

      Potential Antideficiency Act Violation                                    3

      Management Comments on the Finding and Our Response                       5

      Recommendation, Management Comments, and Our Response                     7


Appendix

      Scope and Methodology                                                     8


               Prior Coverage of SPS                                            8


Glossary of Technical Terms                                                     9


Management Comments             


      Assistant Secretary of the Army (Financial Management and Comptroller)   10 


      Army Contracting Command–National Capital Region                         12 

Introduction
Audit Objective
During our audit of the Standard Procurement System (SPS) at the Joint Contracting
Command-Iraq/Afghanistan (JCC-I/A),1 we identified funding issues with SPS. Our
audit objective was to determine whether Army officials properly funded the SPS
enhancements for JCC-I/A. See the Appendix for the scope and methodology and prior
coverage of SPS. See the Glossary of Technical Terms for the definitions of terms used
in this report.

Background
Standard Procurement System
SPS is a program under the Business Transformation Agency’s (BTA’s) Defense
Business System Acquisition Executive Directorate. The Defense Business System
Acquisition Executive Directorate is responsible for driving the successful
implementation of DoD systems and initiatives in support of the Department’s business
transformation goals. SPS automates and streamlines the procurement process within a
workflow management solution that ties the logistical, contracting, and fiscal aspects of
procurement into one enterprise business system.

SPS also provides a mobile configuration of the system for contingency contracting.
Contingency contracting is defined as direct contracting support to those tactical and
operational forces engaged in conflicts and military operations (both domestic and
overseas), including war, other military operations, and disaster or emergency relief.
This mobile configuration works either in a stand-alone or in a client/server
configuration.

SPS has about 23,000 users across DoD, including all Services and 13 other Defense
agencies. Contracting officers use SPS in contingency contracting environments around
the world, including Iraq, Afghanistan, Saudi Arabia, Kuwait, Bosnia, Colombia,
Thailand, and the Philippines.

Joint Contracting Command-Iraq/Afghanistan
JCC-I/A was responsible for providing responsive, operational contracting support to the
Chiefs of Mission, United States Forces-Iraq,2 and United States Forces-Afghanistan.
The Command acquired supplies, services, and construction in support of the coalition
forces and the relief and reconstruction of Iraq and Afghanistan. The Commander of
JCC-I/A served as the Head of Contracting Authority throughout U.S. Central Command’s


1
  DoD IG Report No. D-2010-050, “Standard Procurement System Synchronization Utility,” April 2, 2010, 

CLASSIFIED. 

2
  Multi-National Force-Iraq and Multi-National Corps-Iraq became United States Forces-Iraq on January 1, 

2010. 


                                                   1

(USCENTCOM’s) theater of operations. JCC-I/A operated under the Assistant Secretary
of the Army (Acquisition, Logistics, and Technology), for contracting authority, but
reported to the United States Forces-Iraq for overall command and control. United States
Forces-Iraq operates under the Commander, USCENTCOM. In FY 2008, JCC-I/A
performed more than 41,000 contract actions, valued at over $7.5 billion. In FY 2009,
JCC-I/A performed more than 33,000 actions, valued at over $5 billion.

On June 11, 2010, the responsibilities of JCC-I/A were redesignated under the
USCENTCOM Contracting Command.

Business Transformation Agency
The Deputy Secretary of Defense established BTA in October 7, 2005, to guide the
transformation of business operations throughout the Department of Defense and to
deliver Enterprise-level capabilities that align to warfighter needs. On August 16, 2010,
the Secretary of Defense ordered the disestablishment of BTA. The Defense Logistics
Agency will assume responsibility of SPS upon the disestablishment of BTA.

Army Contracting Agency
The Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
established the Army Contracting Agency (ACA) on October 1, 2002. The ACA’s
mission was to provide command and control of the regional headquarters, contracting
centers, and installation directorates of contracting; the Information Technology
E-Commerce and Commercial Contracting Center (ITEC4); the overseas contracting
activities; and the contingency contracting function. The Army Contracting Command
(ACC) was created in October 2008 as a major subordinate command within the Army
Materiel Command. ACA-ITEC4 is within the ACC-National Capitol Region
(ACC-NCR).

Review of Internal Controls
We determined that an internal control weakness in the funding for SPS enhancements
existed as defined by DoD Instruction 5010.40, “Managers’ Internal Control Program
(MICP) Procedures,” July 29, 2010. Specifically, ACA-ITEC4 contracting officials
inappropriately used approximately $755,000 of FY 2008 Operation and Maintenance
(O&M) funds rather than Procurement funds for the SPS enhancements. We will provide
a copy of the report to the senior official responsible for internal controls at the Army
Contracting Command.




                                            2

Finding. Funding Issues With the Standard
Procurement System
ACA-ITEC4 contracting officials inappropriately used approximately $755,000 of
FY 2008 Operations and Maintenance (O&M) funds rather than Procurement funds for
the SPS enhancements for JCC-I/A. This occurred because ACA-ITEC4 officials
misinterpreted DoD Regulation 7000.14-R, “DoD Financial Management Regulation”
(DoD FMR). As a result, ACA-ITEC4 potentially created a Purpose Statute violation
and may have violated the Antideficiency Act.

Potential Antideficiency Act Violation
ACA-ITEC4 contracting officials did not comply with appropriation laws and regulations
when they used approximately $755,000 of FY 2008 O&M funds rather than
Procurement funds for the SPS enhancements. The SPS contracting officer’s
representative (COR) justified the use of O&M funds for this contract delivery order by
stating that the contractor performed only minor modifications to the existing SPS
functionality and that each of these modifications was less than $250,000, which is the
threshold for O&M funds. ACA-ITEC4 may have created a potential violation of the
Purpose Statute that could have led to an Antideficiency Act violation as noted in the
DoD FMR, Volume 14, Chapter 2, Paragraph 020101, “Antideficiency Act Violations.”3

SPS Enhancements for JCC-I/A
On September 30, 2008, the ACA-ITEC4 awarded task order 0105 against contract
W91V38-07-D-0001 for approximately $755,000 of FY 2008 O&M funds. The Military
Interdepartmental Purchase Requests that provided the funds for the requirement were
from the Assistant Deputy Assistant Secretary of the Army (Procurement) via the SPS
Joint Program Management Office to the ACA-ITEC4. The task order provided SPS
enhancements for the JCC-I/A user community to meet the requirements of the procure-
to-pay process in Iraq and Afghanistan. According to the task order, these enhancements
provided the capability for the JCC-I/A sites to more accurately manage their workload,
further reduce the amount of manual entries, and have complete visibility throughout the
procure-to-pay process.

The task order provided the JCC-I/A site administrators the ability to:

       enter Data Universal Numbering System numbers or Commercial and
        Government Entity codes for vendors that they do not want to synchronize with
        the Central Contractor Registration;
       routinely schedule the export and insertion of all recently released awards,
        modifications, delivery orders, delivery order modifications, and recently
        approved purchase requests from a source database into a target database; and


3
 The Purpose Statute is codified in section 1301, title 31, United States Code (31 U.S.C. § 1301[1982]).
ACA-ITEC4 may have specifically violated 31 U.S.C. § 1341(a)(1)(A)(1990).

                                                     3

   �	 enter default Federal Procurement Data System–Next Generation pre-fill data for
      the site, specifically for:

           o	 reason for interagency contracting,
           o	 purchase card used as payment method,
           o	 contingency humanitarian peacekeeping operations,
           o	 principal place of performance information code,
           o	 sea transportation,
           o	 Small Business Administration/Office of Federal Procurement Policy
              synopsis waiver pilot, and
           o	 alternative advertising.

Funding for SPS Enhancements
According to the performance work statement (PWS) for task order 0105, the SPS
enhancements were critical to JCC-I/A because SPS “will not work out of the box” using
the standard contracting capabilities for the client/server environment. On February 3,
2010, we met with the SPS COR and contracting officials from the Army Contracting
Command-National Capital Region (ACC-NCR) to discuss funding for the SPS
enhancements. The SPS COR stated that SPS was functional in JCC-I/A before these
enhancements. The ACC-NCR contracting officer stated that the wording used in the
PWS was incorrect, although the document had had numerous reviews.

The SPS COR also stated that under the contractor’s proposal, dated September 26,
2008, each task totaled less than $250,000.

   �	 Tasks 1 and 2 were $123,132 each.
   �	 Task 3 was $241,870.
   �	 Contractor support cost was $267,380, which brought the contractor proposal total
      to about $755,000.

The SPS COR stated that the use of O&M funds was appropriate because each individual
task, as the contractor proposed, was less than $250,000. However, the task order did not
list line items for each of the tasks. Instead, it had only one line item, with a unit cost of
                                         about $755,000. This one order, as well as the sum
        ACA-ITEC4 contracting            total of the modifications, exceeded the $250,000
       officials should have used        threshold for the use of O&M funds. In addition,
       Procurement funds for this        the ACC-NCR attorney-advisor could not provide
     order and maintained formal         formal documentation that justified the use of
        documentation to justify         O&M funds for the SPS enhancements.
                 funding.                ACA-ITEC4 contracting officials should have used
                                         Procurement funds for this order and maintained
formal documentation to justify funding. DoD FMR, Volume 2A, Chapter 1, “Budgeting
for Information Technology and Automated Information Systems,” states that “acquiring
and deploying a complete system with a cost of $250,000 or more is an investment and
should be budgeted in a Procurement appropriation.” It also states that, “For


                                              4

modification efforts, only the cost of the upgrades (for example, new software, hardware,
and technical assistance) are counted towards the investment threshold.”

Title 31 of the United States Code contains a number of sections that together are referred
to as the Antideficiency Act (ADA). The purpose of the ADA is to enforce the
constitutional powers of Congress for the purpose, time, and amount of budgetary
expenditures made by the Federal Government. Specifically, 31 U.S.C. § 1301(a),
“Purpose Statute,” states that “appropriations shall be applied only to the objectives for
which the appropriations were made, except as otherwise provided by law.” In addition
to the Purpose Statute, 31 U.S.C. § 1341(a)(1)(A) (1990), states, “An officer or employee
of the United States Government or of the District of Columbia government may not–
(A) make or authorize an expenditure or obligation exceeding an amount available in an
appropriation or fund for the expenditure or obligation."

By incorrectly funding task order 0105 and obligating funds in excess of the approved
amount by law, Army officials may have potentially violated the ADA. DoD FMR,
volume 14, chapter 2, paragraph 020202.B, states that general ADA violations occur
when statutory limitations on the purposes authorized in an appropriation or fund were
violated and upon correction into the proper appropriation or fund, funds were not
available at the time of the erroneous obligation or were not available when the obligation
was recorded in the proper appropriation or fund. In addition, volume 14, chapter 3,
paragraph 0304, states that generally, when an audit report conveys a potential ADA
violation, a recommendation to investigate the potential violation is included in the
report. Paragraph 030202 states that preliminary reviews should be completed within
14 weeks from the date of initial discovery. Therefore, we are including a
recommendation that the Assistant Secretary of the Army (Financial Management and
Comptroller) (ASA[FM&C]) review the potential ADA violation in accordance with the
requirements of DoD FMR, volume 14, chapter 3.

Management Comments on the Finding and
Our Response
The Deputy Assistant Secretary of the Army (Financial Operations) responded for
ASA(FM&C). He stated that the SPS enhancements for JCC-I/A were minor
improvements to the software functionality. He indicated that Contract Line Item
Number (CLIN) 1020 characterized the efforts funded under task order 0105 as
“Maintenance and Service Releases.” He stated that sub-CLIN 1020 AA of task
order 0105 made it clear that the enhancements were to be delivered as a separate service
release in accordance with the PWS and that the SPS enhancements were appropriately
funded with O&M funds.

Although not required to comment, the ACC-NCR Acting Executive Director stated that
O&M funds were appropriately used in funding the SPS enhancements. He said that SPS
was already in use in Iraq and Afghanistan when task order 0105 was issued. He also
indicated that before task order 0105, SPS users in Iraq and Afghanistan had to find
workarounds for the few issues that task order 0105 would address. For the full text of
the ACC-NCR comments, see the Management Comments section of the report.

                                            5

Our Response
The task order that ACC-NCR provided to us to support its response to our finding and
recommendation was not a fully executed contract, as the offeror had not signed it. The
task order document that BTA provided to us during the audit did not contain CLIN 1020
or sub-CLIN 1020 AA. It contained CLIN 1011, “Army Sust & Customer Spt (OPTION
1)”, and sub-CLIN 1011 AA, “JCCIA Enhancements.” However, both task orders had
identical descriptions for the work performed:

   �	 CLINs 1020 and 1011 were defined as “Technical and Functional services to
      support the development, deployment, and continuing support of SPS Joint
      Program Management Office (JPMO), service components and individual sites as
      described in CACI’s Technical Proposal and order under individual task orders
      issued in accordance with the CLIN Labor Categories and Descriptions included
      in Attachment A.”

   �	 Sub-CLINs 1020 AA and 1011 AA were defined as “SPS Procurement Desktop–
      Defense (PD2) JCCIA Enhancements for Federal Procurement Data System–Next
      Generation (FPDS-NG) (pre-fills), Central Contractor Registration (CCR),
      Standard Procurement System–Contingency (SPS-C) Synchronization Utility
      Enhancements to be delivered as a separate service release in accordance with the
      attached PWS Procure to Pay Capability at JCCIA SPS Enhancements,
      Revision C dated 30 September 2009. The level of effort is described in
      contractor’s final proposal revision 3 dated September 26, 2008.”

The invoices for the task order reference the JCC-I/A Enhancements sub-CLIN.
Although SPS was in use at two JCC-I/A sites, the PWS stated “to fully support the
warfighter, the SPS JPMO needs to provide critical enhancements to meet the
requirements for JCC-I/A Procure to Pay in both Iraq and Afghanistan.” It further stated
the “the need exists to provide an End-to-End Procurement Capability in order for the
theater sites to accurately manage their workload and have complete viability [sic]
through the Procure to Pay process.”

The contractor’s proposal, dated September 26, 2008, contained two prices. The first
price assumed that the enhancements were to be included in an already planned SPS
release, Service Release 11. The first price included three tasks for a total price of
$487,134. Each task had a value less than the $250,000 threshold for the use of O&M
funds.

The second price was an optional proposal to develop the enhancements and deliver them
in a new, separate service release, Service Release 10A. This optional proposal also
included limited regression test, the building and testing of installers, and support for the
Government system acceptance test.

The price for the optional proposal was about $755,000, which exceeded the threshold for
the use of O&M funds. Task order 0105 was issued for the optional proposal for a price
of about $755,000. The language on CLIN 1011, sub-CLIN 1011 AA, and the PWS

                                              6

characterized the SPS enhancements as more than minor modifications. The price of task
order 0105 exceeded the $250,000 threshold for the use of O&M funds.

Recommendation, Management Comments, and
Our Response
We recommend that the Assistant Secretary of the Army (Financial Management
and Comptroller) initiate a preliminary review of the potential Antideficiency Act
violation to determine whether a violation occurred, ensure that the preliminary
review is completed within 14 weeks, and provide the results to the DoD Office of
Inspector General.

Assistant Secretary of the Army (Financial Management and
Comptroller) Comments
The Deputy Assistant Secretary of the Army (Financial Operations) did not agree to open
an investigation to determine whether an ADA violation occurred. The Deputy Assistant
Secretary stated that, based on his coordination with ACC-NCR, he found no evidence
that O&M funds were misused. However, he did determine that even if O&M funds
were misused, “a deficiency at the formal subdivision of funds” did not occur, since
sufficient balances of Other Procurement, Army funds existed to adjust the accounts.

Our Response
The Deputy Assistant Secretary’s comments were not responsive. We did not
recommend that the Army open an investigation, but rather perform a preliminary review.
DoD FMR, volume 14, chapter 3, paragraph 030201 states that the purpose of a
preliminary review is to gather facts and ultimately factually establish whether a
reportable violation of 31 U.S.C. § 1341, 31 U.S.C. § 1342, or 31 U.S.C. § 1517 has
occurred.

It further states that a preliminary review is to focus on the potential violation, not the
corrective action. Applicable corrective actions are to be developed during the formal
investigation, if a formal investigation is warranted.

In addition, the additional documentation the Deputy Assistant Secretary provided was
not persuasive because the same language existed in both versions of the task order we
reviewed and did not change the finding or recommendation of our report. We request
that the Deputy Assistant Secretary of the Army (Financial Operations) reconsider his
position on our recommendation and provide additional comments in response to this
report.




                                              7

Appendix. Scope and Methodology
We conducted this performance audit from January 2009 through August 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We reviewed funding documentation related to JCC-I/A enhancements in task order
0105, contract number W91V38-07-D-0001. We interviewed personnel from BTA and
the ACC-NCR.

Use of Computer-Processed Data
We did not rely on computer-processed data to perform this audit.

Use of Technical Assistance
We did not use technical assistance in conducting this audit.

Prior Coverage of SPS
During the last 5 years, the DoD Inspector General (DoD IG) has issued one report
related to the Standard Procurement System.

DoD IG
DoD IG Report No. D-2010-050, “Standard Procurement System Synchronization
Utility” (CLASSIFIED), April 2, 2010




                                             8

Glossary of Technical Terms
Commercial and Government Entity Code. A Commercial and Government Entity
code is a 5-digit alphanumeric code that identifies companies doing or wishing to do
business with the Federal Government. The first and fifth position of the code must be
numbers. The second, third, and fourth may be any mixture of letters and numbers
excluding I and O.

Data Universal Numbering System. Data Universal Numbering System numbers are
issued by Dun and Bradstreet, Inc., and consist of nine digits. OMB uses the Data
Universal Numbering System number to keep track of how Federal organizations
disperse grant money.

Procure–to-Pay Process. The procure-to-pay process includes the steps that need to be
taken between making the decision to buy goods and services and finally making the
payment for those goods and services; that is, forecast and plan requirements, clarify and
specify needs, determine and select a source, generate a contract or purchase order,
receive material and documents, and settle and pay.




                                            9

Assistant Secretary of the Army (Financial Management
and Comptroller) Comments

                                                          Final Report
                                                           Reference




                                                        Added our response
                                                        Page 6




                                                        Added our response
                                                        Page 6




                                10

       Final Report 

        Reference 





     Added our response
     Page 6




11
Army Contracting Command-National Capital Region
Comments




                               12

       Final Report 

        Reference 





     Added our response
     Page 6




13
       Final Report 

        Reference 





     Added our response 

     Page 6 





     Added our response 

     Page 6 





14
       Final Report 

        Reference 





     Added our response
     Page 6




     Revised
     Page 3




15
16 

